Washington, D.C. 20530

May 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Nidal Ahmed Waked Hatum v. United States of America,
S.Ct. No. 20-1370
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 26, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on May 19, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 18, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1370
HATUM, NIDAL AHMED WAKED
USA

ELLIOT S. ABRAMS
CHESHIRE PARKER SCHNEIDER PLLC
133 FAYETTEVILLE STREET
POST OFFICE BOX 1029
RALEIGH, NC 27602
919-833-3114
ELLIOT.ABRAMS@CHESHIREPARK.COM
919-832-0739(Fax)
HOWARD MILTON SREBNICK
BLACK SREBNICK KORNSPAN & STUMPF PA
201 S. BISCAYNE BOULEVARD
SUITE 1300
MIAMI, FL 33131
305-371-6421
HSREBNICK@ROYBLACK.COM

